U.S. Department of Justice

Office of the Solicitor General
Washington, D.C. 20530

July 31, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Alfred J. Walker v. N.C. English, Warden
S.CtNo. 19-52

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 8, 2019,
and placed on the docket on July 8, 2019. The government's response is due on August 7, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 6, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0052
WALKER, ALFRED J.
N.C. ENGLISH, WARDEN

ROMAN MARTINEZ
LATHAM & WATKINS LLP
555 ELEVENTH STREET, NW
SUITE 1000
WASHINGTON, DC 20004
202-637-2200
ROMAN.MARTINEZ@LW.COM
ANNIE M. WILSON
LATHAM & WATKINS LLP
330 NORTH WABASH AVE.
SUITE 2800
CHICAGO, IL 60611
312-876-7700

